APPENDIX

App. i

APPENDIX:
Appendix A
Opinion of the U.S. Court of Appeals for
the Ninth Circuit (August 12, 2019) .......... App-1
Appendix B
Order of the U.S. District Court for the
District
of
Montana
Dismissing
Plaintiffs’ Action (Sept. 6, 2017) ............... App-42
Appendix C
Pertinent Montana Campaign-Finance
Statutes ..................................................... App-60

App. 1
_____________________
APPENDIX A
_____________________
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NATIONAL ASSOCIATION FOR GUN
RIGHTS, INC.,
Plaintiff-Appellant,
v.
JEFF MANGAN, in his official
capacity as the Commissioner of
Political Practices for the State of
Montana; Timothy G. Fox, in his
official capacity as Attorney
General for the State of Montana;
LEO J. GALLAGHER, in his official
capacity as County Attorney for the
County of Lewis and Clark,
Defendants-Appellees.

No. 18-35010
D.C.No.6:16cv-00023-DLC
OPINION

Appeal from the United States District Court
for the District of Montana
Dana L. Christensen, Chief District Judge, Presiding
Argued and Submitted March 5, 2019
Portland, Oregon
Filed August 12, 2019

App. 2
_________________________________________________
Before: Susan P. Graber and Marsha S. Berzon,
Circuit Judges, and John R. Tunheim,* District
Judge
Opinion by Judge Berzon
_________________________________________________
SUMMARY**
_________________________________________________
Civil Rights
The panel affirmed in part and reversed in part
the district court’s summary judgment in favor of
Montana defendants in an action brought by the
National Association of Gun Rights, a non-profit
advocacy group, challenging Montana’s electioneering
disclosure laws on First Amendment grounds.
Under Montana law, an organization that makes
an expenditure of more than $250 on a single
electioneering communication must register as a
political committee, subject to certain organizational
and disclosure requirements. An electioneering
*

The Honorable John R. Tunheim, Chief United States
District Judge for the District of Minnesota, sitting by
designation.
**

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

App. 3
communication is, in part, a paid communication
made within 60 days of the initiation of voting in an
election, that can be received by more than 100
recipients in a voting district and that refers to
candidates, political parties or ballot issues. Mont.
Code Ann. § 13-1-101(16). Plaintiff filed suit asserting
that the State’s definition of electioneering
communication was both facially overbroad in
violation
of
the
First
Amendment
and
unconstitutional as applied to plaintiff. Plaintiff
alleged that the First Amendment permits states to
require disclosure only of express advocacy and its
functional equivalent. Plaintiff asserted that because
its proposed mailers did not specifically advocate for
or against a specific candidate, but just provided
information about a candidate’s position on Second
Amendment
issues,
plaintiff
could
not
constitutionally be required to comply with Montana’s
disclosure requirements.
The panel held that the First Amendment does not
limit states’ election disclosure requirements solely to
regulating express advocacy. The panel reasoned that
requiring disclosure of information related to subtle
and indirect communications likely to influence
voters’ votes was critical to the State’s interest in
promoting
transparency
and
discouraging
circumvention of its electioneering laws. Applying
exacting scrutiny, the panel held that like the
disclosure provisions that were approved in Human
Life of Washington Inc. v. Brumsickle, 624 F.3d 990,
1016 (9th Cir. 2010) and Yamada v. Snipes, 786 F.3d
1182 (9th Cir. 2015), most of Montana’s disclosure
and related requirements were substantially related

App. 4
to important governmental interests connected with
informing the electorate.
The panel held that only Montana’s requirement
pursuant to §§ 13-37-203, that organizations
designate a treasurer registered to vote in Montana,
was constitutionally infirm. The panel held that the
registered-Montana-voter requirement was not
substantially related to any important governmental
interest. The panel also held, however, that the
registered-voter provision was severable from the rest
of the Montana disclosure regime, which could remain
in force. The panel therefore affirmed the district
court’s summary judgment in favor of Montana except
with respect to the treasurer provision.
_________________________________________________
COUNSEL
David Warrington (argued), Kutak Rock LLP,
Washington, D.C.; Matthew G. Monforton, Monforton
Law Offices PLLC, Bozeman, Montana; for PlaintiffAppellant.
Jere Stuart Segrest (argued) and Matthew T.
Cochenour, Assistant Attorneys General; Timothy
Fox, Attorney General; Office of the Attorney
General, Helena, Montana; for Defendants-Appellees.
Randy Elf, Lakewood, New York, as Amicus Curiae.
_________________________________________________

App. 5
OPINION
BERZON, Circuit Judge:
The National Association of Gun Rights (“NAGR”
or “the Association”), a non-profit advocacy group,
challenges Montana’s electioneering disclosure laws
on First Amendment grounds. This appeal treads on
familiar territory. In Human Life of Washington Inc.
v. Brumsickle, 624 F.3d 990, 1016 (9th Cir. 2010)
(“HLW”), we upheld the State of Washington’s
disclosure regime, and in Yamada v. Snipes, 786 F.3d
1182 (9th Cir. 2015), we rejected challenges to a
similar regime in Hawaii. Montana’s disclosure
regulations closely resemble those of these other
states.
Like the disclosure provisions we approved in
HLW and Yamada, most of Montana’s disclosure and
related requirements are substantially related to
important governmental interests connected with
informing
the
electorate.
Only
Montana’s
requirement that organizations designate a treasurer
registered to vote in Montana is constitutionally
infirm. We therefore affirm the district court’s
summary judgment in favor of Montana except with
respect to that provision.
I
A
NAGR is a tax-exempt non-profit organization
under 26 U.S.C. § 501(c)(4); its principal place of
business is in Colorado. NAGR’s articulated mission

App. 6
is to “defend the right to keep and bear arms, and
advance that God-given Constitutional right by
educating the American people and urging them to
action in the public policy process.” NAGR reports
that it has approximately 36,000 members and
supporters in Montana and 4.5 million members
nationwide. To retain its federal tax status, NAGR
cannot engage in “direct or indirect participation or
intervention in political campaigns on behalf of or in
opposition to any candidate for public office.” 26
C.F.R. § 1.501(c)(4)–1(a)(2)(ii).
As part of its mission, NAGR seeks to “let[] the
public know where legislators and governmental
officials stand on issues related to the Second
Amendment.” “[D]uring [the 2020] election cycle,”
NAGR intends “to mail educational literature to
Montanans . . . describing which public officials have
supported the rights of citizens to keep and bear arms
and engage in lawful self-defense, as well as those
who have not done so.”1 NAGR represents that its
proposed future mailer would cost more than $250 to
The proposed literature would be similar in content to the
material NAGR mailed during a previous election cycle. In 2012,
NAGR sent several mailers to residents in Flathead County,
Montana, that discussed state Senator Bruce Tutvedt’s alleged
attempts to “kill” a state bill encouraging gun ammunition
manufacturing. The mailer read: “Bruce Tutvedt: Working
Against the Flathead’s Burgeoning Small-Arms Industry.” It
further stated, “FACT: Flathead County was poised to get a new
smokeless powder plant until Bruce Tutvedt took to the Senate
Floor and demanded it be killed. (S.B. 371, 04/13/11 Audio) Now,
thanks to Bruce Tutvedt, unemployment in the Flathead is
nearly 11% percent.” The mailer called on residents to “[c]ontact
Bruce Tutvedt right away and DEMAND he apologize for killing
new manufacturing for Flathead County.”
1

App. 7
distribute. The Association does not intend to
distribute the literature, however, if the literature
would be deemed an “electioneering communication,”
subjecting
the
organization
to
disclosure
requirements under Montana law.
B
In 2015, the Montana State Legislature enacted
S.B. 289 (“the Statute”), covering a category of speech,
denominated “electioneering communications,” with
the purpose of “increasing transparency, informing
Montanans about who is behind the messages vying
for their attention, and decreasing circumvention” of
campaign finance laws. The Statute defines
“electioneering communication” as follows:
(a) “Electioneering communication” means a
paid communication that is publicly distributed
by radio, television, cable, satellite, internet
website, newspaper, periodical, billboard, mail,
or any other distribution of printed materials,
that is made within 60 days of the initiation of
voting in an election, that does not support or
oppose a candidate or ballot issue, that can be
received by more than 100 recipients in the
district voting on the candidate or ballot issue,
and that:
(i) refers to one or more clearly identified
candidates in that election;
(ii) depicts the name, image, likeness, or
voice of one or more clearly identified
candidates in that election; or

App. 8
(iii) refers to a political party, ballot
issue, or other question submitted to the
voters in that election.
(b) The term does not mean:
(i) a bona fide news story, commentary,
blog, or editorial distributed through
the facilities of any broadcasting
station, newspaper, magazine, internet
website, or other periodical publication
of general circulation unless the
facilities are owned or controlled by a
candidate or political committee;
(ii)
a
communication
by
any
membership
organization
or
corporation
to
its
members,
stockholders, or employees;
(iii) a commercial communication that
depicts a candidate's name, image,
likeness, or voice only in the
candidate’s
capacity
as
owner,
operator, or employee of a business
that existed prior to the candidacy;
(iv) a communication that constitutes a
candidate debate or forum or that
solely promotes a candidate debate or
forum and is made by or on behalf of
the person sponsoring the debate or
forum; or

App. 9
(v) a communication that the
commissioner determines by rule is not
an electioneering communication.
Mont. Code Ann. § 13-1-101(16).2
An organization that makes an expenditure of
more than $250 on a single electioneering
communication must register as a “political
committee.”3 Section 13-1-101(31)(a) defines “political
committee” as:
[A] combination of two or more individuals or a
person other than an individual who receives a
contribution or makes an expenditure:

Montana Administrative Rule 44.11605(2)(b) defines “the
initiation of voting” for purposes of electioneering
communications to occur “when absentee ballot packets are
mailed.” The Commissioner of Political Practices has interpreted
“the initiation of voting” date to be 25 days before an election,
the date when general absentee ballots are mailed. Mont. Code
Ann. § 13-13-205(1)(a)(ii). NAGR contends that the earliest date
absentee ballots are mailed is 45 days before an election, when
absentee ballots for overseas service members are sent. § 13-13205(2). For our purposes, we need not determine whether
electioneering communications are those made within 85 days of
an election or within 105 days.
2

For clarity, we refer to any money an organization spends,
whether on advertisements or donations to a candidate, ballot
issue, or another organization, as an “expenditure.” We refer to
funds an organization receives from any source as a
“contribution.”
3

App. 10
(i) to support or oppose a candidate or a
committee organized to support or oppose
a candidate or a petition for nomination;
(ii) to support or oppose a ballot issue or a
committee organized to support or oppose
a ballot issue; or
(iii) to prepare or disseminate an election
communication,
an
electioneering
communication, or an independent
expenditure.
Political committees ordinarily must abide by
certain organizational requirements.4 All such
organizations must file a registration form with the
Commissioner of Political Practices containing an
organizational statement and the names and
addresses of all officers, § 13-37-201(2)(b); appoint a
treasurer registered to vote in Montana, §§ 13-37201(1), -203; deposit all contributions received and
expenditures to be disbursed into a bank authorized
to transact business in Montana, § 13-37-205; abide
by certain depository requirements, § 13-37-207; and
keep up-to-date records of contributions and
expenditures, § 13-37-208.
In addition to meeting these organizational
requirements, political committees are subject to
These political committee requirements do not apply, with
certain exceptions, to political committees organized to support
an issue or campaign in a school district or other special districts
comprising “a unit of local government authorized by law to
perform a single function or a limited number of functions.”
Mont. Code Ann. § 13-37-206.
4

App. 11
disclosure requirements depending on their level of
political activity. Montana law distinguishes among
several types of political committees, § 13-1101(31)(b), two of which are relevant to this case:
“incidental”
committees
and
“independent”
5
committees.
An “incidental committee” is a political committee
“not specifically organized or operating for the
primary purpose of supporting or opposing candidates
or ballot issues but that may incidentally become a
political committee by receiving a contribution or
making an expenditure.” §13-1- 101(23)(a). A
prototypical incidental committee is a business that
operates continuously. If such a committee makes an
expenditure of more than $250, it is considered an
incidental political committee under S.B. 289, but
only for the election cycle in which it makes a
qualifying expenditure. An incidental committee
must report to whom it is making expenditures, but it
is not required to report from whom it is receiving
contributions unless those contributions were
solicited or earmarked for a particular candidate,
ballot issue, or petition for nomination. § 13-37-232.
An incidental committee must file periodic reports
of expenditures and, if applicable, contributions
during an election cycle in which it makes an
expenditure, so long as it continues to accept
qualifying contributions or make qualifying

Political committees also include “ballot issue committees”
and political party committees
5

App. 12
expenditures.6
If,
however,
an
incidental
committee has terminated all qualifying contribution
and expenditure activity for an election cycle, it may
file a closing report at any time. § 13-37-226(9). If it
does so, the committee need not file any subsequent
reports. In practice, if an incidental committee makes
only a single expenditure in an election cycle, it can
fulfill all registration, reporting, and closing
requirements in a single filing of two forms. If an
incidental committee makes multiple expenditures, it
is required to file reports at the intervals required by
law.
An “independent committee” differs from an
incidental committee in purpose. It is a political
committee “organized for the primary purpose of
receiving contributions and making expenditures that
is not controlled either directly or indirectly by a
candidate and that does not coordinate with a
candidate in conjunction with the making of
expenditures” except pursuant to certain provisions
not relevant here. § 13- 1-101(24). An independent
committee is subject to more detailed disclosure and
reporting
requirements
than
an
incidental
Specifically, an incidental committee making multiple
expenditures must file a report on the 90th, 35th, and 12th day
preceding the date of an election during an election cycle in
which it makes expenditures. § 13-37-226(5)(a). If an incidental
committee receives a qualifying contribution or makes an
electioneering communication greater than or equal to $500
within 17 days of an election, the incidental committee must file
a report within 2 business days of receiving the contribution or
making the electioneering communication. § 13-37- 226(5)(b), (c).
An incidental committee also must file reports within 20 days
after an election and at the close of the calendar year. § 13-37226(5)(d), (e).
6

App. 13
committee. It must report the source and amount of
its contributions, as well as the target and amount of
its expenditures. § 13-37-229.
An independent committee must make the
required disclosures in the same periodic intervals as
an incidental committee. § 13-37-226(4).7 Like an
incidental committee an independent committee may
file closing reports at any time. However, because its
primary purpose is to advocate during elections, an
independent committee often does not close after an
election cycle but instead carries over from one
election cycle to the next.
C
In 2016, NAGR filed suit against several Montana
officials and agencies alleging, among other
challenges,
that
the
State’s
definition
of
“electioneering communication,” § 13-1-101(16), is
both facially overbroad in violation of the First
Amendment and unconstitutional as applied to
NAGR.8 NAGR’s primary contention in district court
Both incidental and independent committees must file more
frequent reports if they receive a contribution or make an
expenditure “supporting or opposing a candidate . . . or a
statewide ballot issue.” § 13-37-226(1)–(3). The timing of such
reports depends on whether the candidate or ballot issue in
question is statewide, district, or local. Id.
7

NAGR brought two other claims: Claim 1—Declaratory and
injunctive relief preventing the Commissioner from prosecuting
NAGR for educational mailings it made in 2012; and Claim 3—
Declaratory and injunctive relief preventing the Commissioner
from enforcing the compelled-vote-reporting provision of
Montana Code Annotated section 13-35-225(3)(a). On cross8

App. 14
was that the First Amendment, as a categorical
matter, permits states to require disclosure only of
express advocacy and its functional equivalent,
defined as speech “susceptible of no reasonable
interpretation other than as an appeal to vote for or
against a specific candidate.” FEC v. Wis. Right To
Life, Inc., 551 U.S. 449, 470 (2007) (“WRTL”). NAGR
asserted that because its proposed mailers did not
specifically advocate for or against a specific
candidate, but just provided information about a
candidate’s position on Second Amendment issues,
the Association could not constitutionally be required
to comply with Montana’s disclosure requirements.
The district court rejected this contention. It
granted summary judgment to Montana on NAGR’s
electioneering communication claim, holding that the
“electioneering communication” definition was not
constitutionally overbroad. The court reasoned that
NAGR’s argument was foreclosed by HLW, 642 F.3d
at 1016, which, said the district court, “reject[ed] [the]
contention that . . . disclosure requirements must be
limited to speech that is the functional equivalent of
express advocacy.” Applying exacting scrutiny, the
district court held that Montana’s interests in
“increasing transparency, informing Montanans
about who is behind the messages vying for their
attention, and decreasing circumvention” are
important governmental interests, and that
motions for summary judgment, the district court denied
NAGR’s first claim as time barred and granted NAGR summary
judgment on the third claim, holding § 13-35-225(3)(a)
unconstitutional. Neither claim is at issue in this appeal.

App. 15
Montana’s disclosure requirements are substantially
related to those interests because “they are tailored to
the degree of an organization’s political activity.” In
support of its determination, the court noted that
NAGR would likely need only to register as an
incidental committee, a minimal burden, and that the
Montana law’s disclosure requirements are further
tailored because the requirements are limited to a
communication that costs more than $250 and is
made within a few months before an election.
This appeal followed. We review de novo the
district court’s grant of summary judgment. See Nigro
v. Sears, Roebuck & Co., 784 F.3d 495, 497 (9th Cir.
2015).
II
A
The First Amendment, made applicable to the
states through the Fourteenth Amendment, forbids
the enactment of any law “abridging the freedom of
speech.” U.S. Const. amend. I. Political speech lies at
the core of speech protected by the First Amendment,
as it is the means by which citizens disseminate
information, debate issues of public importance, and
hold officials to account for their decisions in our
democracy. “The right of citizens to inquire, to hear,
to speak, and to use information to reach consensus is
a precondition to enlightened self-government and a
necessary means to protect it.” Citizens United v.
FEC, 558 U.S. 310, 339 (2010). Thus, “[t]he First
Amendment ‘has its fullest and most urgent
application’ to speech uttered during a campaign for

App. 16
political office.” Id. (quoting Eu v. S.F. Cty.
Democratic Cent. Comm., 489 U.S. 214, 223 (1989)).
Generally, “[l]aws that burden political speech are
‘subject to strict scrutiny’”—that is, they must be
narrowly tailored to further a compelling government
interest. Citizens United, 558 U.S. at 340 (quoting
WRTL, 551 U.S. at 464). But regulations directed only
at disclosure of political speech are subject to
somewhat less rigorous judicial review—“exacting
scrutiny,” which requires the government to show
that the challenged laws are “substantially related to
a sufficiently important governmental interest.”
HLW, 624 F.3d at 1005.
This difference derives from the principle that “the
strength of the governmental interest must reflect the
seriousness of the actual burden on First Amendment
rights.” Davis v. FEC, 554 U.S. 724, 744 (2008). The
two
types
of
regulation—expenditure
and
contribution limitations on the one hand and
disclosure requirements on the other—have different
effects. Expenditure and contribution limitations
“necessarily reduce[] the quantity of expression by
restricting the number of issues discussed, the depth
of their exploration, and the size of the audience
reached.” Buckley v. Valeo, 424 U.S. 1, 19 (1976) (per
curiam). By contrast, “[d]isclaimer and disclosure
requirements may burden the ability to speak, but
they ‘impose no ceiling on campaign-related activities’
and ‘do not prevent anyone from speaking.’” Citizens
United, 558 U.S. at 366 (quoting Buckley, 424 U.S. at
64; McConnell v. FEC, 540 U.S. 93, 201 (2003)). Far
from restricting speech, electioneering disclosure

App. 17
requirements reinforce democratic decisionmaking by
ensuring that voters have access to information about
the speakers competing for their attention and
attempting to win their support. “[T]he people in our
democracy are entrusted with the responsibility for
judging and evaluating the relative merits of
conflicting arguments. They may consider, in making
their judgment, the source and credibility of the
advocate.” First Nat’l Bank of Bos. v. Bellotti, 435 U.S.
765, 791–92 (1978) (footnote omitted). Recognizing
the important information-enhancing role that
disclosure laws play, the Supreme Court and our
court have subjected laws requiring speakers to
disclose information in the electoral context to a
somewhat less demanding standard than strict
scrutiny, described as “exacting scrutiny.” See Doe v.
Reed, 561 U.S. 186, 196 (2010) (collecting cases).
B
NAGR’s primary argument—that the First
Amendment, as a categorical matter, permits states
to require disclosure only with respect to express
advocacy—has been rejected by both the Supreme
Court and this court.9 In Wisconsin Right To Life, the
Neither party contests that NAGR’s intended electioneering
materials are likely electioneering communications covered by
Montana law, subjecting NAGR to prosecution if it does not
comply with Montana’s requirements. NAGR’s decision—not to
distribute for fear of prosecution, election material it would have
distributed if the challenged laws had not been enacted—is
sufficient to establish standing. In the First Amendment context,
“self-censorship” is “a harm that can be realized even without an
actual prosecution.” Virginia v. Am. Booksellers Ass’n, 484 U.S.
383, 393 (1988). So long as the “intended speech arguably falls
9

App. 18
Supreme Court limited federal restrictions on
independent campaign expenditures to express
advocacy and its functional equivalent. WRTL, 551
U.S. at 469–70. But Citizens United declined to
impose the same categorical limitation on disclosure
requirements. 558 U.S. at 369. There, the Court
upheld a federal law requiring certain electioneering
communications to include a disclaimer by the
organization that funded the communication.
The electioneering communications at issue in
Citizens United were television advertisements
promoting a movie about then-presidential candidate
Hillary Clinton. The advertisements were not the
functional equivalent of express advocacy. “They
referred to then-Senator Clinton by name shortly
before a primary and contained pejorative references
to her candidacy,” but they did not expressly advocate
support or opposition for her candidacy. Id. at 368.10
Nonetheless, the Court upheld the disclaimer
requirements. Rather than rely on a rigid distinction
between express advocacy and issue advocacy, the
Court reasoned that the “[t]he disclaimers . . . provide
the electorate with information and insure that the
voters are fully informed about the person or group
within the [challenged] statute’s reach,” refraining from that
speech to avoid disclosure requirements, where speaking
without disclosure could lead to prosecution, is a constitutionally
sufficient injury. HLW, 624 F.3d at 1000–01 (quoting Cal. ProLife Council Inc. v. Getman, 328 F.3d 1088, 1095 (9th Cir. 2003)).
The Court held that the film itself constituted express
advocacy, 558 U.S. at 325, but did not so determine with respect
to the advertisements for the film.
10

App. 19
who is speaking” Id. (citations and alterations
omitted).
We relied on this holding in HLW. 624 F.3d at
1016. Citing Citizens United, we declined to recognize
“a bright- line rule distinguishing express and issue
advocacy” and “reject[ed] [the] contention that the
disclosure requirements must be limited to speech
that is the functional equivalent of express advocacy.”
Id. (quoting Citizens United, 558 U.S. at 369).
NAGR cites the Seventh Circuit’s decision in
Wisconsin Right to Life, Inc. v. Barland, 751 F.3d 804
(7th Cir. 2014) (“Barland”), to support its contention
that
electioneering
disclosure
laws
may
constitutionally apply only to express advocacy. We
necessarily rejected that proposition in HLW. Other
circuits agree with HLW on this point. “Citizens
United made clear that the wooden distinction
between express advocacy and issue discussion does
not apply in the disclosure context.” Ctr. for
Individual Freedom v. Madigan, 697 F.3d 464, 484
(7th Cir. 2012); accord Vt. Right to Life Comm., Inc. v.
Sorrell, 758 F.3d 118, 132 (2d Cir. 2014); Nat’l Org.
for Marriage v. McKee, 649 F.3d 34, 54 (1st Cir. 2011).
Considered as a whole, Barland’s reading of
Citizens United is not to the contrary. That decision
asserted that the Court’s holding in Citizens United
regarding disclosure requirements did not “suggest[]
that the Court was tossing out the express-advocacy
limitation for all disclosure systems” and cautioned
that “it’s a mistake to read Citizens United as giving
the government a green light to impose politicalcommittee status on every person or group that

App. 20
makes a communication about a political issue that
also refers to a candidate.” Barland, 751 F.3d at 836–
37. In context, when Barland stated that Citizens
United “applies only to the specifics of the disclosure
requirement at issue there,” id. at 836, it was offering
a contrast between narrowly tailored and sweeping
disclosure requirements, id. at 837, not determining
that even appropriately tailored disclosure laws, such
as the one considered in Citizens United, may apply
only to express advocacy.
Montana’s disclosure requirements for political
speech that mentions a candidate or ballot initiative
in the days leading up to an election reflect the
unremarkable reality that such speech—express
advocacy or not—is often intended to influence the
electorate regarding the upcoming election. That
NAGR intends specifically to send out its mailers
“during this election cycle” reveals its own belief that
such communications are more relevant to voters in
the days before an election. To paraphrase HLW,
“[f]or the same reasons that [NAGR] had a heightened
interest in speaking about [Second Amendment
rights] during the run-up to the . . . vote, [Montanans]
had a heightened interest in knowing who was trying
to sway their views on the topic and how much they
were willing to spend to achieve that goal.” 624 F.3d
at 1019. Requiring disclosure of information related
to subtle and indirect communications likely to
influence voters’ votes is critical to the State’s interest
in promoting transparency and discouraging
circumvention of its electioneering laws.

App. 21
In sum, the First Amendment does not limit
states’ election disclosure requirements solely to
regulating express advocacy. Rather, we apply
exacting scrutiny in determining the validity of
election
disclosure
requirements
covering
electioneering communications.
C
NAGR also submits that, even if exacting scrutiny
applies,11
Montana’s
disclosure
regime
for
12
electioneering communications cannot stand. Not
so.
This is not the first time we have addressed the
constitutionality of electioneering communication
disclosure requirements under exacting scrutiny.
Both HLW and Yamada upheld disclosure regimes
similar to the one at issue in this case. With one
exception, Montana’s requirements are sufficiently
NAGR acknowledges that, if electioneering communication
disclosure requirements for issue advocacy are permitted at all,
exacting scrutiny—not strict scrutiny—applies. Before HLW,
there was some confusion in this circuit as to whether
electioneering disclosure laws are subject to exacting scrutiny or
strict scrutiny. See HLW, 624 F.3d at 1003–05. HLW clarified
that exacting scrutiny is the correct standard. Id.
11

NAGR maintains that it is challenging only the
overbreadth of the term “electioneering communications” and
not the accompanying disclosure requirements. This attempt at
delicately parsing NAGR’s claim is of no help. The
constitutionally permissible scope of the term “electioneering
communications” depends on the disclosure burdens that attach
when a speaker makes such a communication.
12

App. 22
parallel to those in HLW and Yamada that those
precedents control here.
HLW addressed a challenge to the State of
Washington’s laws requiring public disclosures for
organizations engaging in various types of political
speech. Under Washington law, an organization
engaged in limited political advocacy is required to
disclose only its “independent expenditures” and
“political advertising.” Id. at 998. Such an
organization must identify the target of its
expenditures on a monthly basis so long as it
continues to make expenditures, but generally need
not disclose the source of its contributions. Id. at 998–
99.
On the other hand, the Washington disclosure
statute requires an organization that has as its
“‘primary or one of the primary purposes’ to ‘affect,
directly or indirectly, governmental decision making
by supporting or opposing candidates or ballot
propositions’” to fulfill more significant requirements
by registering as a “political committee.” Id. at 997
(quoting Evergreen Freedom Found. v. Wash. Educ.
Ass’n, 49 P.3d 894, 903 (Wash. Ct. App. 2002)). A
political committee must file ongoing reports
disclosing the sources of its expenditures and
contributions. Id. at 998. The frequency of reporting
for both types of organizations in Washington is
pegged to fixed intervals before an election. Id. at
998–99.
In HLW, a non-profit organization, Human Life of
Washington Inc., sought to distribute material
opposing physician-assisted suicide shortly before a

App. 23
state ballot initiative vote to legalize such conduct in
Washington. Id. at 995, 1014. Applying exacting
scrutiny, we determined that Washington’s interest
in “[p]roviding information to the electorate” is a
sufficiently important interest to justify Washington’s
disclosure requirements, because the requirements
“help[ed] ensure that voters have the facts they need
to evaluate the various messages competing for their
attention” and make informed electoral choices. Id. at
1005.
HLW went on to hold that the State’s disclosure
requirements are substantially related to that
important interest. Id. at 1012, 1018. With respect to
the political committee requirements, we reasoned
that Washington’s disclosure requirements are
appropriately scaled to the level of political advocacy
in which an organization engages. The scaling
“ensures that the electorate has information about
groups that make political advocacy a priority,
without sweeping into its purview groups that only
incidentally engage in such advocacy.” Id. at 1011.
HLW also determined that Washington’s political
committee disclosure requirements are not overly
burdensome relative to the government’s interests.
Id. at 1013. Such requirements are triggered only if a
committee spends above a certain annual threshold
and involve only a two-page registration form, along
with three additional reports pegged to the election in
which the organization is engaging. Id. And, with
respect to the independent expenditures and political
advertising requirements, HLW concluded that those
requirements are substantially related to the interest
in informing the electorate, because they (1) “target

App. 24
only those expenditures and advertisements made in
conjunction with an ongoing election or vote,” and (2)
“once the initial two-page registration form is filed,
the filing of additional special reports is pegged to the
dates of the upcoming election.” Id. at 1018.
Yamada addressed issues closely similar to those
in HLW, this time rejecting an as-applied challenge to
election disclosure laws in Hawaii. While doing so,
Yamada reaffirmed the First Amendment principles
established in HLW. 786 F.3d 1182.
Under Hawaii law, an organization with “‘the
purpose’ of making or receiving contributions, or
making expenditures, for communications or
activities that constitute express advocacy or its
functional equivalent” that receives contributions or
makes certain expenditures in excess of $1000 over a
two-year election period must register as a
“noncandidate committee.” Id. at 1194–95. A
noncandidate committee must provide identifying
information about its organization, maintain records
for five years, and keep a segregated bank account for
the committee’s contributions. Id. at 1195. In
addition, a noncandidate committee is required to
disclose its contributions and expenditures at
intervals tied to each election cycle and to file annual
reports. Id. Organizations that do not qualify as
noncandidate committees in Hawaii need only include
disclosures
in
certain
“electioneering
communications,” such as advertising that identifies
a candidate and advocates or opposes the election of
that candidate. Id. at 1202.

App. 25
Yamada upheld both Hawaii’s noncandidate
committee
disclosure
requirements
and
its
electioneering
communication
disclosure
requirements. With respect to the noncandidate
committee requirements, Yamada held that the
requirements are “materially indistinguishable” from
the disclosure requirements at issue in HLW. In so
holding, Yamada reasoned that, because the
requirements do not apply to organizations engaged
in incidental advocacy and trigger reporting
requirements only at a $1,000 threshold, they are
adequately tailored to the governmental interests
underlying them. Id. at 1195, 1198–99. With respect
to electioneering communications, Yamada noted
that Hawaii’s disclaimer requirements track the
federal disclaimer requirements upheld in Citizens
United. Id. at 1201–03.
Taken together, HLW and Yamada indicate that
electioneering disclosure laws that survive exacting
scrutiny under the First Amendment exhibit certain
broad features. These features are apparent in all but
one component of Montana’s disclosure requirements.
First, such laws further the “important” interests
of “providing the electorate with information,
deterring actual corruption and avoiding any
appearance thereof, and gathering the data necessary
to
enforce
more
substantive
electioneering
restrictions.” Yamada, 786 F.3d at 1197 (quoting
Canyon Ferry Rd. Baptist Church of E. Helena, Inc. v.
Unsworth, 556 F.3d 1021, 1031 (9th Cir. 2009)); see
also Citizens United, 558 U.S. at 369; McConnell, 540
U.S. at 196; HLW, 624 F.3d at 1008. Knowing shortly

App. 26
before an election who is speaking and how much they
are spending “enables the electorate to make
informed decisions and give proper weight to different
speakers and messages.” Citizens United, 558 U.S. at
371.
Montana’s disclosure regime furthers identical
interests. Montana’s interests in “increasing
transparency, informing Montanans about who is
behind the messages vying for their attention, and
decreasing circumvention” of campaign finance laws
are sufficiently important to justify election
disclosure requirements. See Citizens United, 558
U.S. at 369; McConnell, 540 U.S. at 196; Yamada, 786
F.3d at 1197; HLW, 624 F.3d at 1008.
Second, the substantive information organizations
must disclose under valid electioneering laws usually
varies with the type and level of an organization’s
political advocacy.
Organizations that frequently engage in political
speech can be required to disclose more information
than organizations that do so only occasionally. When
measuring an organization’s level of political
advocacy, these statutes often use purpose as a proxy.
For example, the Washington disclosure laws upheld
in HLW require organizations with “a primary
purpose of political advocacy” to disclose the source
and amount of both contributions and expenditures;
organizations without such a purpose must disclose
only the source and amount of expenditures. 624 F.3d
at 998–99. Similarly, the Hawaii laws upheld in
Yamada require organizations with “‘the purpose’ of
... [engaging in] express advocacy or its functional

App. 27
equivalent” to disclose information about both
contributions and expenditures, 786 F.3d at 1194–95;
organizations having no such purpose but engaging in
occasional political advertising are required to
include only a disclaimer within the advertisement
itself, concerning whether a candidate endorsed the
particular advertisement, id. at 1202. Variance in
substantive reporting requirements for different
levels of political advocacy activity “ensures that the
electorate has information about groups that make
political advocacy a priority, without sweeping into its
purview groups that only incidentally engage in such
advocacy.” HLW, 624 F.3d at 1011.
Montana’s disclosure regime similarly imposes
reporting
burdens
commensurate
with
an
organization’s level of political advocacy. Montana
has a two-tiered reporting structure, like the
Washington regime affirmed in HLW. Id.
Independent committees, which have the “primary
purpose of receiving contributions and making
expenditures” to support a candidate or ballot
initiative, or make electioneering communications,
Mont. Code Ann. § 13-1-101(24), are subject to more
substantial
requirements
than
incidental
committees, which do not have such a primary
purpose, § 13-1-101(23)(a). Independent committees
must report both contributions received and
expenditures made, § 13-37-229; incidental
committees need only report expenditures, unless
their contributions were solicited or earmarked for a

App. 28
particular candidate, ballot issue, or petition for
nomination.13
Third, in valid electioneering disclosure laws, the
frequency of required reporting does not extend
indefinitely to all advocacy conducted at any time but
is tied to election periods or to continued political
spending. During an election period, reporting is for
the most part limited to reasonable intervals in the
days leading up to an election and shortly thereafter.
Yamada upheld a requirement to file reports ten days
before any election, twenty days after a primary
election, and thirty days after a general election. 786
F.3d at 1195. Similarly, HLW upheld a requirement
to file reports on the twenty-first day before an
election, the seventh day before an election, and the
tenth day of the first month after an election. 624 F.3d
at 998, 1013. Less extensive reporting requirements
are imposed on organizations that receive
contributions or make expenditures outside an
election period, see Yamada, 786F.4d at 1195; HLW,
624 F.3d at 1013, or on organizations that stop
making expenditures in the middle of an election
period, see Yamada, 786 F.3d at 1195; HLW, 624 F.3d

In this respect, Montana’s disclosure regime is
distinguishable from the Wisconsin regime invalidated in
Barland, the Seventh Circuit case that NAGR cites to support
its position. 751 F.3d 804. The disclosure requirements there did
not vary with an organization’s level of political advocacy.
Groups engaged in express advocacy and those engaged in issue
advocacy were subject to the same reporting requirements. Id.
at 837. So were organizations with a major purpose of political
advocacy and those that incidentally engaged in such advocacy.
Id. at 841–42.
13

App. 29
at 1018-19.14 These requirements reflect “the unique
importance of the temporal window immediately
preceding a vote,” when speech is more likely to be
perceived as related to an election and the public is
more likely to pay attention to and be affected by such
speech. HLW, 624 F.3d at 1019.
Montana’s reporting requirements are similarly
tied with precision to specific election periods. For
organizations
that
make
electioneering
communications,
such
as
NAGR,
only
a
communication made “within 60 days of the initiation
of voting in an election” triggers the requirement to
register as a political committee. § 13-1-101(16). Once
an organization registers as a political committee, it
usually must file disclosure reports at intervals
preceding and shortly after an election, as well as at
the end of the calendar year. § 13-37- 226(4), (5).
Committees that receive contributions or make
expenditures “supporting or opposing a candidate . . .
or ballot issue” must file more frequent reports. § 1337- 226(1)-(3). If a committee terminates qualifying
contributions and expenditure activity for an election
cycle, it may file a “closing report” at any time,
Other circuits have struck down reporting requirements
that mandate reporting after an organization stops making
expenditures in the middle of an election period. See Minn.
Citizens Concerned for Life, Inc. v. Swanson, 692 F.3d 864, 873–
74 (8th Cir. 2012) (en banc) (enjoining Minnesota’s reporting
requirements, which continued to apply after an organization
ceased further expenditures); Iowa Right to Life Comm., Inc. v.
Tooker, 717 F.3d 576, 596–98 (8th Cir. 2013) (striking down
Iowa’s ongoing reporting requirements, which were not tethered
to any future political spending).
14

App. 30
relieving it of subsequent reporting obligations. § 1337-226(9). A committee making a single expenditure
in an election cycle can thus fulfill all registration,
reporting, and closing requirements in one filing of
two forms. Montana’s reporting requirements are
therefore
carefully
tailored
to
pertinent
circumstances, distinguishing them from one-sizefits-all disclosure regimes that other circuits have
invalidated. See Swanson, 692 F.3d at 873–74;
Tooker, 717 F.3d at 596–98.
Fourth, disclosure laws specifying a monetary
threshold at which contributions or expenditures
trigger reporting requirements ensure that the
government does not burden minimal political
advocacy. The acceptable threshold for triggering
reporting requirements need not be high. In Hawaii,
the threshold was raising or spending more than
$1,000 during a two-year election cycle. Yamada, 786
F.3d at 1195. In Washington, the threshold was
raising or spending more than $5,000, or raising more
than $500 from a single donor. HLW, 624 F.3d at
1013.
Once reporting requirements are triggered, states
may constitutionally mandate disclosure of even
small contributions. Family PAC v. McKenna, 685
F.3d 800, 809 (9th Cir. 2012), for example, upheld
requirements that organizations disclose the names
and addresses of contributors donating more than $25
and reveal the employer and occupation of
contributors giving more than $100. “[K]nowing the
source of even small donations is informative in the
aggregate and prevents evasion of disclosure.” Worley

App. 31
v. Fla. Sec’y of State, 717 F.3d 1238, 1251 (11th Cir.
2013); see also Buckley, 424 U.S. at 82–84 (upholding
a requirement that organizations keep records of all
contributions in excess of $10 and report
contributions in excess of $100).
Montana’s disclosure regime imposes requirements
only on organizations that make an expenditure of
more than $250 to disseminate a single electioneering
communication, § 13-1-101(31)(d), ensuring that
disclosure requirements do not burden minimal
political activity. This threshold is within the range of
constitutionally acceptable reporting thresholds. See.
e.g., McKee, 649 F.3d at 59–60 (upholding a $100
contribution threshold); Yamada, 786 F.3d at 1195
(upholding a threshold of $1,000 during a two-year
election cycle); HLW, 624 F.3d at 1013 (upholding a
threshold of $5,000 during an election cycle or $500
from a single donor).
Finally, disclosure laws may impose certain
adjunct requirements on political speakers, to enable
“gathering the data necessary to enforce more
substantive electioneering restrictions.” Yamada, 786
F.3d at 1197 (quoting Canyon, 556 F.3d at 1031). An
organization may be required to “designate officers,
disclose its bank account information, and designate
a treasurer responsible for recording contributions
and expenditures and maintaining records for five
years,” id. at 1195, as well as to file a short
registration form containing “the organization’s
name, relationship with other organizations, and
persons with authority over the organization’s
finances,” HLW, 624 F.3d at 1013.

App. 32
Most of Montana’s disclosure-related registration
requirements are similar to, and no more onerous
than, those we upheld in HLW, 624 F.3d at 1013, and
in Yamada, 786 F.3d at 1195. Qualifying political
committees need to file a two-page registration form
with the State containing basic identification
information, § 13-37-201(3), appoint a treasurer, § 1337-201(1), abide by certain bank depository
requirements, §§ 13-37-205, -207, and keep current
records of contributions and expenditures, § 13-37208. See, e.g., HLW, 624 F.3d at 997 (noting bank and
treasurer requirements). Like the obligations in HLW
and Yamada, these obligations “require little more if
anything than a prudent person or group would do in
these circumstances anyway.” Worley, 717 F.3d at
1250; see also SpeechNow.org v. FEC, 599 F.3d 686,
697 (D.C. Cir. 2010) (en banc) (upholding
“organizational requirements . . . such as designating
a treasurer and retaining records”).
In short, almost all of Montana’s disclosure
requirements share the features that HLW and
Yamada have highlighted as markers of valid
disclosure laws and so withstand exacting scrutiny.
Yamada, 786 F.3d at 1195.15

We do not suggest that disclosure laws with different
features than those described above would not survive exacting
scrutiny. Rather, these are features of statutes that do survive
such scrutiny. Election disclosure schemes are often varied and
complex, imposing different requirements on different categories
of speakers.
15

For example, an election disclosure regime could embody
these broad principles but, in its details, impose overly onerous

App. 33
D
NAGR suggests that, even if HLW and Yamada
otherwise
support
upholding
Montana’s
electioneering disclosure requirements, Montana’s
requirements governing the disclosure of issue
advocacy during candidate elections are inconsistent
with HLW.
HLW did note that “there is less of a danger of a
regulation sweeping too broadly in the context of a
ballot measure than in a candidate election,” because
“the only issue advocacy that could potentially be
regulated is advocacy regarding the single issue put
before the public.” HLW, 624 F.3d at 1018 (emphasis
omitted) (internal quotation marks omitted). In
making that distinction, HLW reasoned that, “[i]n the
ballot initiative context, . . . where express and issue
advocacy are arguably ‘one and the same,’ any
incidental regulation of issue advocacy imposes more
limited burdens that are more likely to be
substantially related to the government’s interests.”
Id.
HLW’s discussion was of relevant differences
between ballot initiatives and candidate elections
that could matter in some—but not all—
circumstances. In the end, though, HLW rejected both
requirements. Conversely, legislatures have some discretion to
define the precise details of each scheme—for example the
specific dollar threshold that triggers disclosure requirements.
“[D]isclosure thresholds . . . are inherently inexact; courts
therefore owe substantial deference to legislative judgments
fixing these amounts.” Family PAC, 685 F.3d at 811.

App. 34
a facial and an as-applied challenge to Washington’s
disclosure requirements generally. Id. at 994– 95.
Those requirements covered both candidate and
ballot initiative elections. Id. at 997–99. We observed
in HLW that the “disclosure obligations do not apply
absent a pending election or ballot initiative
campaign,” id. at 1018 (emphasis added), and thus
concluded that Washington’s tailored disclosure
regulations were not overbroad as applied to
candidate elections.
Yamada, decided after HLW, upheld Hawaii’s
election disclosure regime as applied to a corporation
that contributed money to candidate campaigns and
bought advertisements criticizing a candidate.
Examining Hawaii’s carefully tailored disclosure
requirements for electioneering communications,
Yamada suggested no distinction between candidate
and ballot initiative elections for First Amendment
purposes. See 786 F.3d at 1185–86.
Similarly, Montana’s tailored disclosure regime
for electioneering communications does not violate
the First Amendment simply because it covers
candidate elections. As explained, the components of
Montana’s disclosure regime are—with the exception
we next discuss—closely parallel to those upheld in
HLW and Yamada. And, like the disclosure
regulations in those cases, Montana’s requirements
are substantially related to important governmental
interests as applied both to candidate and to ballot
initiative elections.

App. 35
III
One of Montana’s registration requirements does
raise serious First Amendment concerns. In addition
to imposing the registration requirements already
mentioned, Montana mandates that a political
committee’s designated treasurer be a registered
Montana voter. § 13-37-203. To register as a Montana
voter, an individual must be at least 18 years of age,
a resident of Montana for at least 30 days, a United
States citizen, not currently incarcerated for a felony,
and of sound mind. § 13-1-111. This registeredMontana-voter requirement is not, we hold,
substantially related to any important governmental
interest.
Montana’s registered-voter requirement is subject
to exacting scrutiny, not strict scrutiny. True, the
requirement does not, on its own, mandate
registration or disclosure. Rather than require that a
speaker provide particular information about itself or
its activities, it imposes a requirement on how an
organization
engaged
in
electioneering
communication must be structured. The requirement
is, however, a predicate to enforcement of a broader
disclosure regime.
Our precedents addressing the constitutionality of
state electioneering disclosure regimes have
subjected to exacting rather than strict scrutiny the
entire disclosure regime, including provisions that do
not themselves require registration or disclosure.
Yamada, for example, analyzed under exacting
scrutiny, and upheld, laws requiring covered entities
to maintain records of their contributions and

App. 36
expenditures. 786 F.3d at 1195. HLW approved the
requirement that political committees open bank
accounts in the state in which they are speaking. 624
F.3d at 997. Our sister circuits have similarly so held.
See Worley, 717 F.3d at 1249 (upholding under
exacting scrutiny “[o]ther requirements, such as
requiring a treasurer, segregated funds, and recordkeeping” (internal quotation marks omitted)); Sorrell,
758 F.3d at 137 (characterizing “registration,
recordkeeping necessary for reporting, and reporting
requirements” as a single “disclosure regime” subject
to exacting scrutiny); SpeechNow.org, 599 F.3d at
697–98 (upholding under exacting scrutiny
“organizational requirements ... such as designating a
treasurer and retaining records” ). Montana’s
registered voter requirement resembles the types of
organizational requirements that we and other
circuits have analyzed under exacting scrutiny.
Reviewing
Montana’s
registered
voting
requirement under exacting scrutiny is consistent
with precedents in which strict scrutiny was applied.
Nader v. Brewer, 531 F.3d 1028 (9th Cir. 2008), for
example, reviewed an Arizona requirement that
circulators of candidate nomination petitions be
residents of that state, id. at 1036, concluding that
strict scrutiny was compelled by the Supreme Court’s
decision in Buckley v. Am. Constitutional Law Found.,
Inc., 525 U.S. 182, 194–95 (1999). Buckley invalidated
a Colorado law requiring that circulators of ballot
initiative petitions be registered voters. As Nader
noted, “[t]he Court held in Buckley that significantly
reducing the number of potential circulators imposed
a severe burden on rights of political expression.”

App. 37
Nader, 531 F.3d. at 1036. Inferring from Buckley that
laws severely burdening speech rights must be
subject to strict scrutiny, Nader concluded that the
Arizona residency requirement was subject to strict
scrutiny because it “exclude[d] from eligibility all
persons who support the candidate but who . . . live
outside the state of Arizona.” Id.
Montana’s registered-voter requirement is
significantly less burdensome than the requirements
at issue in Buckley and Nader. The particular First
Amendment harm that restrictions on petition
circulators pose is that they “limit the number of
voices who will convey the initiative proponents’
message and, consequently, cut down the size of the
audience proponents can reach.” Buckley, 525 U.S. at
194– 95 (alterations and citations omitted). No
similar limitation on the audience reached is here at
issue: Montana requires only that a single individual
be a registered Montana voter— a political
committee’s treasurer. So long as an organization can
find one such treasurer, the size of the audience it can
reach will not be limited.
So, given the limited burden on a political
committee’s speech imposed by Montana’s registeredvoter requirement, we apply exacting rather than
strict scrutiny to determine its validity. But we
conclude anyway that the registered voter
requirement does not significantly forward the
interests it is said to advance and so violates the First
Amendment.
Addressing the connection between the registeredvoter requirement and the goals of its disclosure

App. 38
scheme, Montana asserts that the registered voter
requirement is “shorthand” for the prerequisites that
being a registered Montana voter entails—being at
least 18, of sound mind, a Montana resident, and not
an incarcerated felon. Such types of prerequisites can
be substantially related to Montana’s important
interest in identifying representatives of political
committees who can be held accountable for violations
of election laws.16 For example, the State has a strong
interest in assuring that it can subpoena treasurers
of political committees, and only individuals within
the state can be subpoenaed. Mont. Code. Ann. § 4615-107.
But an individual can meet all the prerequisites
for registering to vote yet not register. Montana could
have made appropriate prerequisites for registration
the conditions for serving as treasurer without
requiring registration itself. Montana identifies no
interest served by excluding potential treasurers who
are not registered voters but could be if they chose.
We cannot identify any such interest either. And none
of the disclosure regimes we have upheld have
included such a registration requirement. Yamada,
786 F.3d at 1195 (citing Haw. Rev. Stat. § 11-324);
HLW, 624 F.3d at 997 (citing Wash. Rev. Code §
42.17.050(1)).

We do not address whether the details of Montana’s
prerequisites for voter registration—such as the 30-day
Montana residency requirement—are permissible conditions for
being a treasurer of a political committee.
16

App. 39
An out-of-state organization like NAGR, which
has its principal place of business in Colorado, may
not have any members qualified to be designated as a
treasurer and registered to vote in Montana. By
imposing the voter registration qualification that it
does, the state burdens the speech rights of such
organizations without any justification and so
violates the First Amendment.
But that single invalid provision certainly does not
mean that the entire disclosure statute falls. The
registered-voter provision is definitely severable from
the rest of the Montana disclosure regime.
“Severability is a matter of state law.” Sam
Francis Found. v. Christies, Inc., 784 F.3d 1320, 1325
(9th Cir. 2015) (en banc) (alterations and quotations
omitted). Under Montana law:
[I]f a statute contains both constitutional and
unconstitutional provisions, we examine the
legislation to determine if there is a severability
clause. The inclusion of a severability clause in
a statute is an indication that the drafters
desired a policy of judicial severability to apply
to the enactment. If a statute does not contain
a severability clause, we still may sever an
unconstitutional provision. In doing so, we
must determine whether the unconstitutional
provisions are necessary for the integrity of the
law or were an inducement for its enactment.
In order to sever an unconstitutional provision,
the remainder of the statute must be complete
in itself and capable of being executed in
accordance with the apparent legislative intent.

App. 40
That is, if severing the offending provisions will
not frustrate the purpose or disrupt the
integrity of the law, we will strike only those
provisions
of
the
statute
that
are
unconstitutional.
State v. Theeler, 385 P.3d 551, 553–54 (Mont. 2016)
(citations and internal quotation marks omitted).
The statute that first enacted the requirement
that committee treasurers must be registered
Montana voters contained a severability provision,
see 1975 Mont. Laws 1250, 1265, but a later
amendment did not, see 1977 Mont. Laws 108. But
“[w]ith or without severability clauses in each
amendment since the statute’s enactment, we
conclude that the unconstitutional provision is
unnecessary for the integrity of the law.” Theeler, 385
Mont. at 474 (quotation marks omitted). Without the
registered voter requirement, a political committee
would still be required to designate a committee
treasurer, fulfill registration requirements, and keep
records of its contributions and expenditures. Mont.
Code Ann. §§ 13-37-201, -208. Montana would still be
able to gather the identifying information necessary
to enforce its substantive campaign finance laws, as
evidenced by other state electioneering disclosure
regimes that do not require treasurers to register in
their state. See Yamada, 786 F.3d at 1195; HLW, 624
F.3d at 997.
In short, the remainder of the electioneering
disclosure regime could still be “executed in
accordance with the apparent legislative intent” of
the law. Theeler, 385 P.3d at 554 (internal quotation

App. 41
marks omitted). We hold that, despite the invalidity
of the registered voter provision, the rest of Montana’s
disclosure scheme remains in force.
IV
In sum, the First Amendment does not limit
Montana to regulating only express advocacy. With
the
exception
of
its
designated-treasurer
requirement, all of the other components of
Montana’s disclosure regime survive exacting
scrutiny. Like the disclosure regimes upheld in HLW
and Yamada, Montana’s scheme is sufficiently
tailored to Montana’s interest in informing its
electorate of who competes for the electorate’s
attention and preventing the circumvention of
Montana’s election laws.
We AFFIRM in part and REVERSE and
REMAND in part the district court’s summary
judgment order. The parties shall bear their own costs
on appeal.

App. 42
_____________________
APPENDIX B
_____________________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
NATIONAL ASSOCIATION FOR GUN
RIGHTS, INC.,
Plaintiff,
vs.
JONATHAN MOTL, in his official
capacity as the Commissioner of
Political Practices for the State of
Montana; Timothy G. Fox, in his
official capacity as Attorney
General for the State of Montana;
LEO J. GALLAGHER, in his official
capacity as County Attorney for the
County of Lewis and Clark,
Defendants.

CV 16-23-HDLC
(Consolidated
with CV 1633-H-DLC)
ORDER

Before the Court are cross-motions for summary
judgment. Plaintiff National Association for Gun
Rights, Inc. (“NAGR”) argues that Montana’s
campaign finance disclosure requirements are
unconstitutional. Specifically, NAGR contends that
Montana impermissibly regulates “issue advocacy” by
imposing reporting requirements for “electioneering
communications.” See Mont. Code Ann. § 13-1-101(15)

App. 43
(2015) (defining “electioneering communications”).
NAGR also contends that Montana's vote disclosure
statute, Montana Code Annotated ("MCA")§ 13-35225(3), is likewise unconstitutional. In response,
Defendants Jonathan Motl,1 Timothy C. Fox, and Leo
Gallagher, in their official capacities (collectively
“Defendants”), move for summary judgment arguing
that Montana’s regulation of electioneering
communications satisfies constitutional scrutiny. For
the reasons discussed below, the Court will grant
Defendants’ motion as it pertains to MCA § 13-1101(15). However, because Defendants do not contest
Plaintiffs' challenge to MCA § 13-35-225(3), the Court
will grant NAGR’s motion in part and award
summary judgment as to this claim only.
I. Background
A. National Association for Gun Rights, Inc.
NAGR is a tax-exempt organization under
Internal Revenue Code § 501(c)(4). See NAGR v.
Murray, 969 F. Supp. 2d 1262, 1264-1265 (D. Mont.
Sept. 17, 2013) (“NAGR I”). NAGR asserts that they
are “a grassroots organization whose mission is to
defend the right to keep and bear arms, and advance
that God-given Constitutional right by educating the
public and urging them to take action in the public
policy process.” (Doc. 37 at 3 (internal quotation
marks omitted).) In 2012, NAGR sent several mailers
The Court notes that Jonathan Motl is no longer Montana’s
Commissioner of Political Practices. In May 2017, Jeff Mangan
became the new Commissioner of Political Practices.
https://politicalpractices.mt.gov/aboutus
1

App. 44
(“2012 Mailer”) to the residents in Flathead County,
Montana, which discussed state Senator Bruce
Tutvedt’s alleged attempts to “kill” Senate Bill 371.
This bill, which ultimately failed in the 2011 Montana
legislative session, was entitled “[a]n act ensuring the
availability of Montana ammunition; encouraging the
formation of business in Montana primarily engaged
in the manufacture of ammunition components.”
(Doc. 1 at 20.)
The 2012 Mailer stated that “FACT: Flathead
County was poised to get a new smokeless powder
plant until Bruce Tutvedt took to the Senate Floor
and demanded it be killed. (S.B. 371, 4/13/11 Audio)
Now, thanks to Bruce Tutvedt, unemployment in the
Flathead is nearly 11% percent.” (Doc. 1 at 20
(emphasis in original).) The mailer further urged the
recipient to “[c]ontact Bruce Tutvedt right away and
DEMAND
he
apologize
for
killing
new
manufacturing in Flathead County.” (Id. (emphasis in
original).)
As a result of this mailer, NAGR received a letter
from Montana’s Commissioner of Political Practices
(“COPP”) Jonathan Motl which found that NAGR,
along with six other corporate entities, “failed to meet
Montana campaign practice law and standards by
failing to register, report and disclose ... illegal
corporate contributions for or against a ... primary
election candidate.” (Id. at 33.) The letter also stated
that there was sufficient evidence to show that NAGR
“violated Montana's campaign practices laws as set
out above and that civil adjudication of the violation
is warranted.” (Id. at 50.)

App. 45
B. Present Litigation
In March of 2016, NAGR filed suit seeking three
forms of relief. First, NAGR sought to enjoin
Montana’s COPP from pursuing civil penalties
against the organization based on the 2012 Mailer.
Second, as mentioned above, NAGR asserts that MCA
§ 13-1-101(15), which defines “electioneering
communications,” a form of speech which triggers
Montana’s
campaign
finance
disclosure
requirements, is unconstitutionally overbroad and
must be struck down. This statute states that:
(a) “electioneering communication” means a paid
communication that is publicly distributed by
radio, television, cable, satellite, internet website,
newspaper, periodical, billboard, mail, or any
other distribution of printed materials, that is
made within 60 days of the initiation of voting in
an election, that does not support or oppose a
candidate or ballot issue, that can be received by
more than 100 recipients in the district voting on
the candidate or ballot issue, and that:
(i) refers to one or more clearly identified
candidates in that election;
(ii) depicts the name, image, likeness, or voice
of one or more clearly identified candidates in
that election; or
(iii) refers to a political party, ballot issue, or
other question submitted to the voters in that
election.
(b) The term does not mean:
(i) a bona fide news story, commentary, blog, or
editorial distributed through the facilities of

App. 46
any
broadcasting
station,
newspaper,
magazine, internet website, or other periodical
publication of general circulation unless the
facilities are owned or controlled by a candidate
or political committee;
(ii) a communication by any membership
organization or corporation to its members,
stockholders, or employees;
(iii) a commercial communication that depicts
a candidate's name, image, likeness, or voice
only in the candidate's capacity as owner,
operator, or employee of a business that existed
prior to the candidacy;
(iv) a communication that constitutes a
candidate debate or forum or that solely
promotes a candidate debate or forum and is
made by or on behalf of the person sponsoring
the debate or forum; or
(v) a communication that the commissioner
determines by rule is not an electioneering
communication.
Mont. Code Ann.§ 13-1-101(15).
Finally, in its third claim for relief, NAGR asserts
that MCA § 13-35-225(3), Montana’s so-called “vote
disclosure” provision, unconstitutionally compels
speech. This provision requires that:
Printed election material described in subsection
(1) that includes information about another
candidate’s voting record must include the
following:
(i) a reference to the particular vote or votes

App. 47
upon which the information is based;
(ii) a disclosure of all votes made by the
candidate on the same legislative bill or
enactment; and (iii) a statement, signed as
provided in subsection (3)(b ), that to the best
of the signer's knowledge, the statements made
about the other candidate's voting record are
accurate and true.
Mont. Code Ann.§ 13-35-225(3)(a). Following the
filing of its Complaint, NAGR moved for preliminary
relief requesting that this Court: (1) enjoin the COPP
from penalizing NAGR for its 2012 Mailers; and (2)
enjoin the State of Montana from enforcing MCA§§
13-1-101(15) and 13-35-225(3).
Shortly after NAGR filed its Complaint, Plaintiff
J.C. Kantorowicz (“Kantorowicz”), who was at the
time a candidate for the Republican nomination for
Montana Senate District No. 10, also filed suit
challenging the constitutionality of MCA § 13-35225(3). See Kantorowicz v. Motl, et al., Cause No. CV
16-33-H-DLC-JTJ. In April of 2016, a complaint was
filed with the COPP by Kantorowicz’s opponent for
the Republican nomination. This complaint states
that Kantorowicz allegedly violated Montana’s vote
disclosure requirements when he mailed a letter in
January 2016 which discussed his opponent's voting
record but failed to comply with the statute’s
disclosure requirements. Kantorowicz, like NAGR,
filed suit in this Court arguing that MCA § 13-35225(3) is unconstitutional, and moved for preliminary
relief. Due to the similar nature of NAGR and
Kantorowicz’s arguments concerning MCA § 13-35-

App. 48
225(3), the Court consolidated their claims for the
sake of judicial efficiency. (Doc. 17.)
After hearing arguments on the motions for
summary judgment, the Court preliminarily enjoined
the enforcement of MCA § 13-35-225(3), i.e., the vote
disclosure provision. (Doc. 18.) The Court determined
that consolidated Plaintiffs had satisfied their initial
burden that all four Winter2 factors weighed in favor
of a preliminary injunction. In particular, the Court
noted that Plaintiffs were likely to succeed on the
merits of their claim that MCA § 13-35-225(3) was
unconstitutional. In making this finding, the Court
found that MCA § 13-35-225(3) would likely fail to
survive strict scrutiny because it was not narrowly
tailored to Montana’s stated interest in providing
accurate information to the voters.
However, the Court denied NAGR’s motion as it
pertained to the alleged unconstitutionality of MCA §
13-1-101(15),
which
defines
“electioneering
communications.” The Court denied the motion
because NAGR had failed to show that the
organization was likely to succeed on their claim that
MCA § 13-1-101(15) was unconstitutional. The Court
also denied NAGR’s request to enjoin the COPP from
prosecuting the organization for its 2012 Mailer. In
denying NAGR’s request, the Court found that this
Winter v. Natural Resources Defense Council, Inc., 555 U.S.
7, 20 (2008) (“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and that an
injunction is in the public interest.”).
2

App. 49
claim was likely moot because the statute of
limitations for prosecuting any claim regarding the
2012 Mailer was about to run. Further, the COPP
signaled through a declaration that it was likely going
to forgo litigation against NAGR. Thus, because this
claim was about to become moot, the Court refrained
from issuing an advisory opinion and denied without
prejudice NAGR’s request to enjoin any forthcoming
prosecution. Following the Court’s Order on
Plaintiffs’ motions for preliminary injunction, the
parties began briefing their cross-motions for
summary judgment. These motions are now ripe for
decision.
II. Applicable Law
A party is entitled to summary judgment if it can
demonstrate that “there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Summary judgment is warranted where the
documentary evidence produced by the parties
permits only one conclusion. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 251 (1986). A party
opposing a properly supported motion for summary
judgment “may not rest upon mere allegation or
denials of his pleading, but must set forth specific
facts showing that there is a genuine issue for trial.”
Id. at 256. Only disputes over facts that might affect
the outcome of the lawsuit will preclude entry of
summary judgment; factual disputes that are
irrelevant or unnecessary to the outcome are not
considered. Id. at 248.

App. 50
III. Analysis
As mentioned above, NAGR’s Complaint requests
three claims for relief: (1) enjoin the COPP from
pursuing civil penalties against the organization as a
result of the 2012 Mailer (Claim 1); (2) declare MCA §
13-1-101(15) (Claim 2) and MCA § 13-35-225(3)(a)
(Claim 3) as unconstitutional. Additionally,
consolidated Plaintiff Kantorowicz’s Complaint raises
one claim, i.e., the challenge to Montana’s vote
disclosure law. Although it appears that Plaintiffs’
claims regarding the prosecution of NAGR for its 2012
mailers and its challenge to the vote disclosure
statute are now either moot or no longer contested by
Defendants, in the interest of thoroughness, the
Court will briefly address all three claims in order.
A. Prosecution of the 2012 Mailer (Claim 1)
As discussed, the Court denied NAGR's request to
preliminarily enjoin the COPP from prosecuting the
organization because the claim would soon become
moot. Indeed, the parties have conceded that the
statute of limitations for prosecuting any claim
surrounding the 2012 Mailer ran, at the latest, on
June 5, 2016. (Doc. 18 at 11.) Consequently, because
this date has come and gone, and no prosecution was
pursued against NAGR, the Court will dismiss Claim
1 of NAGR’s complaint as moot.
B. Electioneering Communication-Claim 2
Next, Claim 2 of NAGR’s complaint alleges that
MCA § 13-1-101(15), which defines “electioneering

App. 51
communication,” is unconstitutionally overbroad.3
NAGR contends that its mission of “educating the
public" through its mailers which, the organization
affirms, will contain "the positions and voting records
of public officials and candidates regarding the
Second Amendment," is purely "issue advocacy."
(Docs. 28 at 2; 28-1 at 2.) Although NAGR stresses
that "it will not advocate for or against a candidate for
office" (Doc. 28 at 2), the mere fact that its mailers
contain the name of political candidates or political
parties could require the organization to comply with
Montana’s
political
committee
reporting
requirements.
Indeed, under Montana law, NAGR’s mailers
would qualify as an “electioneering communication” if
they: (1) are “publicly distributed by radio, television,
cable, satellite, internet website, newspaper,
periodical, billboard, mail, or any other distribution of
printed materials”; (2) distributed “within 60 days of
Although the parties do not raise the issue of NAGR’s
standing to challenge this statute, the Court briefly notes that
NAGR has satisfied constitutional standing requirements.
NAGR has submitted a declaration from Dudley Brown,
President of NAGR, that states the organization intends to send
out mailers similar to its 2012 Mailer “to Montanans during the
2018 election cycle and will spend more than $250.00 (primarily
printing and mailing to inform Montanans of the positions and
voting records of public officials and candidates regarding the
Second Amendment.” (Doc. 28-1 at 2.) However, NAGR asserts
that it will not send these mailers in 2018 if it is required to
comply with Montana’s disclosure requirements for political
committees. For the reasons discussed in the Court’s Order on
Plaintiffs’ motion for preliminary injunction, the Court finds
NAGR’s second claim raises a constitutional injury-in-fact. (See
Doc. 18 at 12-16).
3

App. 52
the initiation of voting in an election”; (3) do “not
support or oppose a candidate or ballot issue”; (4) “can
be received by more than 100 recipients in the district
voting on the candidate or ballot issue"; and (5) either
“(i) refers to one or more clearly identified candidates
in that election; (ii) depicts the name, image, likeness,
or voice of one or more clearly identified candidates in
that election; or (iii) refers to a political party, ballot
issue, or other question submitted to the voters in
that election.” Mont. Code Ann. § 13-1-101(15)(a).
Further, if NAGR spends at least $250.00 on these
mailers, it has made an “expenditure” under MCA 13l-101(17)(a)(ii), and must register as a “political
committee.” Mont. Code Ann. § 13-1-101(30)(b), (d).
Because sending its mailers would require NAGR to
register as political committee, which would trigger
specific disclosure requirements, NAGR contends
that Montana’s definition of “electioneering
communication” is unconstitutionally overbroad
because it regulates issue advocacy, as opposed to
express political advocacy.
Specifically, NAGR argues that the imposition of
political committee disclosure requirements is an
impermissible burden on the First Amendment rights
of groups who engage in issue advocacy.4 Instead,
NAGR cites to Wisconsin Right To Life, Inc. v. Barland, 751
F.3d 804 (7th Cir. 2014), in support of its argument. However,
the Court is not persuaded by this authority and finds that the
statute at issue in that case is distinguishable from the one at
bar. For instance, unlike Montana's statute, which tailors the
amount of disclosure to the committee's political activities, the
disclosure provisions in Barland “indiscriminately” imposed
“full-blown PAC duties” and required complicated and detailed
4

App. 53
NAGR contends, disclosure requirements are only
appropriate for groups that engage in express
advocacy. The United States Supreme Court has
found that political speech constitutes express
advocacy or its functional equivalent "if the ad is
susceptible of no reasonable interpretation other than
as an appeal to vote for or against a specific
candidate.” Fed. Election Commn. v. Wisconsin Right
To Life, Inc., 551 U.S. 449, 469-470 (2007). Because
NAGR’s proposed mailers do not “appeal to vote for or
against a specific candidate,” and, instead, merely
educate the public about a candidate’s voting record
or positions concerning Second Amendment issues,
NAGR contends that it does not engage in express
advocacy and cannot be burdened with political
committee disclosure requirements. The Court
disagrees.
As recognized in the Court's Order denying in part
NAGR’s motion for preliminary injunction, the
United States Court of Appeals for the Ninth Circuit,
citing the Unites States Supreme Court’s decision in
Citizens United v. FEC, has declined to recognize “a
bright-line rule distinguishing express and issue
advocacy,” and “reject[s] [the] contention that . . .
disclosure requirements must be limited to speech
that is the functional equivalent of express advocacy.”
Human Life of Washington Inc. v. Brumsickle, 624
reporting requirements. Barland, 751 F.3d at 839-841. In
contrast, as discussed infra, Montana's disclosure requirements
are relatively straightforward and impose minimal burdens on
an organization.

App. 54
F.3d 990, 1016 (9th Cir. 2010) (quoting 558 U.S. 310,
369 (2010)). Rather, as previously discussed by this
Court, Montana’s definition of electioneering
communication triggers disclosure requirements for
political committees and thus must be viewed through
the lens of exacting scrutiny, i.e., whether it is
“substantially related to a sufficiently important
governmental interest.” Brumsickle, 624 F.3d at
1016.5
Here, taking this test in reverse, Defendants
contend that MCA § 13-1-101(15), and other statutes
which trigger disclosure requirements, fulfill an
important government interest by “increasing
transparency, informing Montanans about who is
behind the messages vying for their attention, and
decreasing circumvention.” (Doc. 35 at 12.) Indeed,
both the Ninth Circuit and the United States
Supreme Court have recognized these interests to be
important. See Citizens United, 558 U.S. at 369;
Brumsickle, 624 F.3d at 1005, 1008, 1011-1012;
Alaska Right to Life v. Miles, 441 F.3d 773, 793 (9th
Cir. 2006). Likewise, this Court agrees that these are
important, if not compelling, government interests.
Next, Defendants assert that Montana's disclosure
requirements for political committees is substantially
related to these interests. The Court agrees. As
discussed in previous orders by this Court, Montana's
disclosure laws satisfy constitutional scrutiny
The Court notes that NAGR's opening brief in support of its
motion concedes that exacting scrutiny is the appropriate test
for determining the constitutionality of MCA § 13-1-101(15).
(Doc. 28 at 12.)
5

App. 55
because they are tailored to the degree of an
organization's political activity and the timing of its
communications. See Montanans for Community Dev.
v. Motl, 216 F. Supp. 3d 1128, 1152 (D. Mont. 2016);
see also Brumsickle, 624 F.3d 990 at 1013 (finding
that state disclosure laws satisfy constitutional
scrutiny when the “required disclosure increases as a
political committee more actively engages in
campaign spending and as an election nears”).
This Court has found that registering as an
incidental committee imposes a minimal burden on
an organization. NAGR I, 969 F. Supp. 2d at 1267.
Indeed, a political committee registers by completing
a Form C-2, “Statement of Organization,” which can
be completed in less than 10 minutes. (Doc. 14-2 at 34.) This form, like all COPP forms, is available online.
(Id. at 7-8.) To register, the organization need only
disclose its “treasurer/contact ..., a brief description of
the committee type and purpose, a list of the names
of candidates identified by expenditure and the name
and address of the bank used by the political
committee.” (Id. at 3.)
An organization’s committee classification is
driven by its “reportable election activity.” (Id. at 4.)
Here, because NAGR asserts that its proposed
mailers will refer to candidates for office by name, but
“will not advocate for or against a candidate for office”
(Doc. 28 at 2), NAGR’s mailers would likely require
the organization to register as an incidental
committee and complete a Form C-4. See Mont. Code
Ann.§ 13-1-101(22)(a) (“Incidental committee means
a political committee that is not specifically organized

App. 56
or operating for the primary purpose of supporting or
opposing candidates or ballot issues but that may
incidentally become a political committee by receiving
a contribution or making an expenditure.”); (see also
Doc. 14-2 at 4) (internal quotation marks omitted).
Completing Form C-4 requires disclosure of
“receipts and expenditures, including some basic
information -- name, address and date; occupation
and employer for contributions; and the purpose, by
brief description, of the expenditures." (Id. at 7.) An
incidental committee that makes a single expenditure
may open and close within the same reporting period,
and may satisfy its reporting requirements through
one combined C-2 and C-4 filling. (Id. at 5.) Further
expenditures by an incidental committee require the
completion of additional Form C-4 reports. (Id.)
Depending on the complexity of the organization's
contributions and expenditures, more disclosure by
an organization may be required. For example, an
incidental committee that solicits funds for a specific
purpose must report the names of any contributors
who provide these “earmarked contributions.” See
Mont. Code Ann. § 13-37-232(1); see also Mont.
Admin.
R.
44.11.404
(defining
“earmarked
contribution”).
Additionally, the Court notes that not all
communications which mention the name of a
political candidate trigger disclosure requirements. In
addition to the numerous qualifiers which limit the
reach of this statute,6 including the requirement that
more than $250.00 must be spent on the
6

See Mont. Code Ann. 13-1-101(15)(b).

App. 57
communication and that it must be “received by more
than 100 recipients,” the statute only imposes
disclosure requirements on communications made
“within 60 days of the initiation of voting in an
election.” Mont. Code Ann. § 13-1-101(15)(a). Though
the parties dispute whether this limitation comes into
play around 85 days before an election or 105 days
due to Montana's absentee voter system, it is
undisputed that this time period is limited to the
months just before an election. Thus, under this
sliding scale system of mandated disclosures,
reporting
requirements
for
electioneering
communications are limited to the specific period in
time just before an election.
Consequently, the Court finds that any burdens
imposed
by
distributing
electioneering
communications before an election are minimal and
outweighed by the public’s interest in transparency
and disclosure of the individuals or groups vying for
their attention. Further, the disclosure requirements
imposed on groups that distribute electioneering
communications are substantially related to these
interests. Accordingly, the Court finds that MCA § 131-101(15)(a) satisfies exacting scrutiny. Thus, the
Court grants Defendants' motion for summary
judgment and denies Plaintiff motion as it pertains to
the
constitutionality
of
electioneering
communications. Claim 2 of NAGR’s complaint is
dismissed.
C. Montana’s Vote Disclosure Law-Claim 3
As discussed, in its third claim for relief, NAGR

App. 58
asserts that Montana’s vote disclosure law, i.e., MCA
§ 13-35-225(3), violates the First Amendment.
Defendants do not oppose summary judgment on this
claim and state that they “do not plan to further
defend against the challenge to [MCA] § 13-35225(3).” (Doc. 35 at 14.) Although it could be argued
that this claim is now moot because NAGR's challenge
to this statute is uncontested, Ninth Circuit precedent
dictates otherwise. See Jacobus v. Alaska, 338 F.3d
1095, 1102 (9th Cir. 2003) (“[D]ismissal of a case on
grounds of mootness would be justified only if it were
absolutely clear that the litigant no longer had any
need of the judicial protection that it sought.”).
Indeed, because MCA § 13-35-225(3) has not been
repealed, the only thing preventing the COPP from
enforcing the law is the office’s voluntary cessation.
The law is thus still theoretically enforceable and
NAGR’s claim is not moot. Jacobus, 338 F.3d at 1103
(“Mere voluntary cessation of allegedly illegal conduct
does not moot a case; if it did, the courts would be
compelled to leave the defendant free to return to his
old ways.”) (citation omitted).
Accordingly, because the motion is uncontested as
to this claim, the Court will grant NAGR’s motion in
part and award judgment on its third claim for relief.
It thus appears that NAGR’s requested declaratory
relief should be granted and a permanent injunction
issued. As such, Defendants will be given 30 days to
show cause why declaratory relief should not be
awarded and why a permanent injunction should not
be issued.

App. 59
Accordingly, IT IS ORDERED that:
(1) Defendants' Cross-Motion for Summary
Judgment (Doc. 34) is GRANTED;
(2) Consolidated Plaintiffs' Cross-Motion for
Summary Judgment (Doc. 27) is GRANTED in part
and DENIED in part in accordance with the above
order; and
(3) Defendants shall show cause, within thirty (30)
days of this Order, why declaratory relief should not
be awarded on NAGR' s third claim for relief and
why a permanent injunction should not be issued.
Dated this 6th day of September, 2017.

/s/ Dana L. Christensen
Dana L. Christensen, Chief Judge
United States District Judge

App. 60
_____________________
APPENDIX C
_____________________
PERTINENT PROVISIONS OF THE MONTANA
CODE ANNOTATED
13-1-101. Definitions. As used in this title, unless
the context clearly indicates otherwise, the following
definitions apply:
(9) (a) “Contribution” means:
(i) the receipt by a candidate or a political
committee of an advance, gift, loan, conveyance,
deposit, payment, or distribution of money or
anything of value to support or oppose a candidate or
a ballot issue;
(ii) an expenditure, including an in-kind
expenditure, that is made in coordination with a
candidate or ballot issue committee and is reportable
by the candidate or ballot issue committee as a
contribution;
(iii) the receipt by a political committee of funds
transferred from another political committee; or
(iv) the payment by a person other than a
candidate or political committee of compensation for
the personal services of another person that are
rendered to a candidate or political committee.
(b) The term does not mean services provided
without compensation by individuals volunteering a

App. 61
portion or all of their time on behalf of a candidate or
political committee or meals and lodging provided by
individuals in their private residences for a candidate
or other individual.
(c) This definition does not apply to Title 13,
chapter 37, part 6.
(16) (a) “Electioneering communication” means a
paid communication that is publicly distributed by
radio, television, cable, satellite, internet website,
newspaper, periodical, billboard, mail, or any other
distribution of printed materials, that is made within
60 days of the initiation of voting in an election, that
does not support or oppose a candidate or ballot issue,
that can be received by more than 100 recipients in
the district voting on the candidate or ballot issue,
and that:
(i) refers to one or more clearly identified
candidates in that election;
(ii) depicts the name, image, likeness, or voice of
one or more clearly identified candidates in that
election; or
(iii) refers to a political party, ballot issue, or other
question submitted to the voters in that election.
(b) The term does not mean:
(i) a bona fide news story, commentary, blog, or
editorial distributed through the facilities of any
broadcasting station, newspaper, magazine, internet
website, or other periodical publication of general
circulation unless the facilities are owned or
controlled by a candidate or political committee;

App. 62
(ii) a communication by
organization or corporation
stockholders, or employees;

any membership
to its members,

(iii) a commercial communication that depicts a
candidate's name, image, likeness, or voice only in the
candidate's capacity as owner, operator, or employee
of a business that existed prior to the candidacy;
(iv) a communication that constitutes a candidate
debate or forum or that solely promotes a candidate
debate or forum and is made by or on behalf of the
person sponsoring the debate or forum; or
(v) a communication that the commissioner
determines by rule is not an electioneering
communication.
(18) (a) “Expenditure” means a purchase, payment,
distribution, loan, advance, promise, pledge, or gift of
money or anything of value:
(i) made by a candidate or political committee to
support or oppose a candidate or a ballot issue; or
(ii) used or intended for use in making
independent
expenditures
or
in
producing
electioneering communications.
(b) The term does not mean:
(i) services, food, or lodging provided in a manner
that they are not contributions under subsection (9);
(ii) payments by a candidate for personal travel
expenses, food, clothing, lodging, or personal
necessities for the candidate and the candidate's
family;

App. 63
(iii) the cost of any bona fide news story,
commentary, blog, or editorial distributed through
the facilities of any broadcasting station, newspaper,
magazine, or other periodical publication of general
circulation; or
(iv) the cost of any communication by any
membership organization or corporation to its
members or stockholders or employees.
(c) This definition does not apply to Title 13,
chapter 37, part 6.
(23) (a) “Incidental committee” means a political
committee that is not specifically organized or
operating for the primary purpose of supporting or
opposing candidates or ballot issues but that may
incidentally become a political committee by receiving
a contribution or making an expenditure.
(b) For the purpose of this subsection (23), the
primary purpose is determined by the commissioner
by rule and includes criteria such as the allocation of
budget, staff, or members' activity or the statement of
purpose or goal of the person or individuals that form
the committee.
(24) “Independent committee” means a political
committee organized for the primary purpose of
receiving contributions and making expenditures that
is not controlled either directly or indirectly by a
candidate and that does not coordinate with a
candidate in conjunction with the making of

App. 64
expenditures except pursuant to the limits set forth
in 13-37-216(1).
(25) “Independent
expenditure”
means
an
expenditure for an election communication to support
or oppose a candidate or ballot issue made at any time
that is not coordinated with a candidate or ballot
issue committee.
(31) (a) “Political committee” means a combination of
two or more individuals or a person other than an
individual who receives a contribution or makes an
expenditure:
(i) to support or oppose a candidate or a
committee organized to support or oppose a candidate
or a petition for nomination;
(ii) to support or oppose a ballot issue or a
committee organized to support or oppose a ballot
issue; or
(iii) to prepare or disseminate an election
communication, an electioneering communication, or
an independent expenditure.
(b) Political committees include ballot issue
committees, incidental committees, independent
committees, and political party committees.
(c) A candidate and the candidate's treasurer do
not constitute a political committee.
(d) A political committee is not formed when a
combination of two or more individuals or a person

App. 65
other than an individual makes an election
communication, an electioneering communication, or
an independent expenditure of $250 or less.
13-37-201. Campaign treasurer. (1) Except as
provided in 13-37-206, each candidate and each
political committee shall appoint one campaign
treasurer and certify the full name and complete
address of the campaign treasurer pursuant to this
section.
(2) (a) A candidate shall file the certification within
5 days after becoming a candidate.
(b) Except as provided in subsection (2)(c), a
political committee shall file the certification, which
must include an organizational statement and the
name and address of all officers, if any, within 5 days
after it makes an expenditure or authorizes another
person to make an expenditure on its behalf,
whichever occurs first.
(c) A political committee that is seeking to place
a ballot issue before the electors shall file the
certification, including the information required in
subsection (2)(b), within 5 days after the issue
becomes a ballot issue, as defined in 13-1-101(6)(b).
(3) The certification of a candidate or political
committee must be filed with the commissioner.

App. 66
13-37-205. Campaign depositories. Except as
provided in 13-37-206, each candidate and each
political committee shall designate one primary
campaign depository for the purpose of depositing all
contributions
received
and
disbursing
all
expenditures made by the candidate or political
committee. The candidate or political committee may
also designate one secondary depository in each
county in which an election is held and in which the
candidate or committee participates. Deputy
campaign treasurers may make deposits in and
expenditures from secondary depositories when
authorized to do so as provided in 13-37-202(2). Only
a bank, credit union, savings and loan association, or
building and loan association authorized to transact
business in Montana may be designated as a
campaign depository. The candidate or political
committee shall file the name and address of each
designated primary and secondary depository at the
same time and with the same officer with whom the
candidate or committee files the name of the
candidate's or committee's campaign treasurer
pursuant to 13-37-201. This section does not prevent
a political committee or candidate from having more
than one campaign account in the same depository,
but a candidate may not utilize the candidate's
regular or personal account in the depository as a
campaign account.
13-37-207. Deposit
of
contributions
-statement of campaign treasurer. (1) All funds
received by the campaign treasurer or any deputy
campaign treasurer of any candidate or political

App. 67
committee must be deposited prior to the end of the
fifth business day following their receipt, Sundays
and holidays excluded, in a checking account, share
draft account, share checking account, or negotiable
order of withdrawal account in a campaign depository
designated pursuant to 13-37-205.
(2) A statement showing the amount received
from or provided by each person and the account in
which the funds are deposited must be prepared by
the campaign treasurer at the time the deposit is
made. This statement along with the receipt form for
cash contributions deposited at the same time and a
deposit slip for the deposit must be kept by the
treasurer as a part of the treasurer's records.
13-37-208. Treasurer to keep records. (1) (a)
Except as provided in subsection (1)(b), the campaign
treasurer of each candidate and each political
committee shall keep detailed accounts of all
contributions received and all expenditures made by
or on behalf of the candidate or political committee
that are required to be set forth in a report filed under
this chapter. The accounts must be current within not
more than 10 days after the date of receiving a
contribution or making an expenditure.
(b) The accounts described in subsection (1)(a)
must be current as of the 5th day before the date of
filing of a report as specified in 13-37-228.
(2) Accounts of a deputy campaign treasurer
must be transferred to the treasurer of a candidate or
political committee before the candidate or political
committee finally closes its books or when the position

App. 68
of a deputy campaign treasurer becomes vacant and
no successor is appointed.
(3) Accounts kept by a campaign treasurer of a
candidate or political committee must be preserved by
the campaign treasurer for a period coinciding with
the term of office for which the person was a candidate
or for a period of 4 years, whichever is longer.
13-37-226. Time for filing reports. (1) Except as
provided in 13-37-206 and 13-37-225(3), a candidate
shall file reports required by 13-37-225(1)(a)
containing the information required by 13-37229, 13-37-231, and 13-37-232 as follows:
(a) quarterly, due on the 5th day following a
calendar quarter, beginning with the calendar
quarter in which funds are received or expended
during the year or years prior to the election year that
the candidate expects to be on the ballot and ending
in the final quarter of the year preceding the year of
an election in which the candidate participates;
(b) the 20th day of March, April, May, June,
August, September, October, and November in the
year of an election in which the candidate
participates;
(c) within 2 business days of receiving a
contribution of $100 or more if received between the
15th day of the month preceding an election in which
the candidate participates and the day of the election;
(d) within 2 business days of making an
expenditure of $100 or more if made between the 15th

App. 69
day of the month preceding an election in which the
candidate participates and the day of the election;
(e) semiannually on the 10th day of March and
September, starting in the year following an election
in which the candidate participates until the
candidate files a closing report as specified in 13-37228(3); and
(f) as provided by subsection (3).
(2) Except as provided in 13-37-206, 13-37225(3), and 13-37-227, a political committee shall file
reports required by 13-35-225(1)(a) containing the
information
required
by 13-37-229, 13-37-231,
and 13-37-232 as follows:
(a) quarterly, due on the 5th day following a
calendar quarter, beginning with the calendar
quarter in which the political committee receives a
contribution or makes an expenditure after an
individual becomes a candidate or an issue becomes a
ballot issue, as defined in 13-1-101(6)(b), and ending
in the final quarter of the year preceding the year in
which the candidate or the ballot issue appears on the
ballot;
(b) the 30th day of March, April, May, June,
August, September, October, and November in the
year of an election in which the political committee
participates;
(c) within 2 business days of receiving a
contribution, except as provided in 13-37-232, of $500
or more if received between the 25th day of the month
before an election in which the political committee
participates and the day of the election; and

App. 70
(d) within 2 business days of making an
expenditure of $500 or more that is made between the
25th day of the month before an election in which the
political committee participates and the day of the
election;
(e) quarterly, due on the 5th day following a
calendar quarter, beginning in the calendar quarter
following a year of an election in which the political
committee participates until the political committee
files a closing report as specified in 13-37-228(3); and
(f) as provided by subsection (3).
(3) In addition to the reports required by
subsections (1) and (2), if a candidate or a political
committee participates in a special election, the
candidate or political committee shall file reports as
follows:
(a) a report on the 60th, 35th, and 12th days
preceding the date of the special election; and
(b) 20 days after the special election.
(4) Except as provided by 13-37-206, candidates
for a local office and political committees that receive
contributions or make expenditures referencing a
particular local issue or a local candidate shall file the
reports specified in subsections (1) through (3) only if
the total amount of contributions received or the total
amount of funds expended for all elections in a
campaign exceeds $500.
(5) A report required by this section must cover
contributions received and expenditures made
pursuant to the time periods specified in 13-37-228.

App. 71
(6) A political committee may file a closing report
prior to the date in 13-37-228(3) and after the
complete termination of its contribution and
expenditure activity during an election cycle.
(7) For the purposes of this section:
(a) a candidate participates in an election by
attempting to secure nomination or election to an
office that appears on the ballot; and
(b) a political committee participates in an
election by receiving a contribution or making an
expenditure.
13-37-228. Time
periods
covered
by
reports. Reports filed under 13-37-225 and 13-37226 must be filed to cover the following time periods
even though no contributions or expenditures may
have been received or made during the period:
(1) The initial report must cover all contributions
received or expenditures made by a candidate or
political committee from the time that a person
became a candidate or a political committee, as
defined in 13-1-101, until the 5th day before the date
of filing of the appropriate initial report pursuant
to 13-37-226. Reports filed by political committees
organized to support or oppose a statewide ballot
issue must disclose all contributions received and
expenditures made prior to the time an issue becomes
a ballot issue by transmission of the petition to the
proponent of the ballot issue or referral by the
secretary of state even if the issue subsequently fails
to garner sufficient signatures to qualify for the
ballot.

App. 72
(2) Subsequent periodic reports must cover the
period of time from the closing of the previous report
to 5 days before the date of filing of a report pursuant
to 13-37-226. For the purposes of this subsection, the
reports required under 13-37-226(1)(c), (1)(d), (2)(c),
and (2)(d) are not periodic reports and must be filed
as required by 13-37-226(1)(c), (1)(d), (2)(c), and
(2)(d), as applicable.
(3) Closing reports must cover the period of time
from the last periodic report to the final closing of the
books of the candidate or political committee. A
candidate or political committee shall file a closing
report following an election in which the candidate or
political committee participates whenever all debts
and obligations are satisfied and further
contributions or expenditures will not be received or
made that relate to the campaign unless the election
is a primary election and the candidate or political
committee will participate in the general election.
13-37-229. Disclosure
requirements
for
candidates, ballot issue committees, political
party
committees,
and
independent
committees. (1) The reports required under 13-37225 through 13-37-227 from candidates, ballot issue
committees, political party committees, and
independent committees must disclose the following
information concerning contributions received:
(a) the amount of cash on hand at the beginning
of the reporting period;
(b) the full name, mailing address, occupation,
and employer, if any, of each person who has made

App. 73
aggregate contributions, other than loans, of $35 or
more to a candidate or political committee, including
the purchase of tickets and other items for events,
such as dinners, luncheons, rallies, and similar
fundraising events;
(c) for each person identified under subsection
(1)(b), the aggregate amount of contributions made by
that person within the reporting period and the total
amount of contributions made by that person for all
reporting periods;
(d) the total sum of individual contributions
made to or for a political committee or candidate and
not reported under subsections (1)(b) and (1)(c);
(e) the name and address of each political
committee or candidate from which the reporting
committee or candidate received any transfer of
funds, together with the amount and dates of all
transfers;
(f) each loan from any person during the
reporting period, together with the full names,
mailing addresses, occupations, and employers, if
any, of the lender and endorsers, if any, and the date
and amount of each loan;
(g) the amount and nature of debts and
obligations owed to a political committee or candidate,
in the form prescribed by the commissioner;
(h) an itemized account of proceeds that total less
than $35 from a person from mass collections made at
fundraising events;

App. 74
(i) each contribution, rebate, refund, or other
receipt not otherwise listed under subsections (1)(b)
through (1)(h) during the reporting period;
(j) the total sum of all receipts received by or for
the committee or candidate during the reporting
period; and
(k) other information that may be required by the
commissioner to fully disclose the sources of funds
used to support or oppose candidates or issues.
(2) (a) Except as provided in subsection (2)(c), the
reports required under 13-37-225 through 13-37227 from candidates, ballot issue committees,
political party committees, and independent
committees must disclose the following information
concerning expenditures made:
(i) the full name, mailing address, occupation,
and principal place of business, if any, of each person
to whom expenditures have been made by the
committee or candidate during the reporting period,
including the amount, date, and purpose of each
expenditure and the total amount of expenditures
made to each person;
(ii) the full name, mailing address, occupation,
and principal place of business, if any, of each person
to whom an expenditure for personal services,
salaries, and reimbursed expenses has been made,
including the amount, date, and purpose of that
expenditure and the total amount of expenditures
made to each person;

App. 75
(iii) the total sum of expenditures made by a
political committee or candidate during the reporting
period;
(iv) the name and address of each political
committee or candidate to which the reporting
committee or candidate made any transfer of funds,
together with the amount and dates of all transfers;
(v) the name of any person to whom a loan was
made during the reporting period, including the full
name, mailing address, occupation, and principal
place of business, if any, of that person and the full
names, mailing addresses, occupations, and principal
places of business, if any, of the endorsers, if any, and
the date and amount of each loan;
(vi) the amount and nature of debts and
obligations owed by a political committee or candidate
in the form prescribed by the commissioner; and
(vii) other information that may be required by the
commissioner to fully disclose the disposition of funds
used to support or oppose candidates or issues.
(b) Reports of expenditures made to a consultant,
advertising agency, polling firm, or other person that
performs services for or on behalf of a candidate or
political committee must be itemized and described in
sufficient detail to disclose the specific services
performed by the entity to which payment or
reimbursement was made.
(c) A candidate is required to report the
information specified in this subsection (2) only if the
transactions involved were undertaken for the
purpose of supporting or opposing a candidate.

App. 76
13-37-231. Reports to be certified as true,
complete, and correct. (1) A report required by this
chapter to be filed by a candidate or political
committee must be verified as true, complete, and
correct by the oath or affirmation of the individual
filing the report. The individual filing the report must
be the candidate or an officer of a political committee
who is on file as an officer of the committee with the
commissioner.
(2) A copy of a report or statement filed by a
candidate or political committee must be preserved by
the individual filing it for a period coinciding with the
term of office for which the person was a candidate or
for a period of 4 years, whichever is longer.

